No . 20- 244

1fn tlp! §upreme Qtourt of tqe Nniteh §fates
J AMES MICHAEL FAYED, Petitioner,
V.

STATE OF CALIFORNIA, R espondent.

CERTIFICATE OF SERVICE BY MAIL

I, Idan Ivri, Dep uty Attorney General, a member of the Bar of t his Court h ereby
certify that on November 30, 2020, three copies of the BRIEF IN OPPOSITION in
the above-entitled case were mailed, first class postage prepaid to:
Kelly C. Quinn
Attorney at Law
Werksman Jackson Hathaway
& Quinn LLP
888 W. Sixth Street, Fourth Floor
Los Angeles, CA 90017
kq uinn@wer ksmanj ackson .com
(2 13) 688-0460

I further certify th at all parties required to be served have been served.

IDAN IVRI, Deputy Attorn ey General
Office of th e Attorney General
300 South Spring Street, Suite 1702
Los An ge les, CA 900 13
Telephone: (2 13) 269-6168
Counsel for Respondent
LA2020602311

